<html>
<title> - H.R. 273, H.R. 274, H.R. 289 and H.R. 417</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
               H.R. 273, H.R. 274, H.R. 289 and H.R. 417

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 6, 2003

                               __________

                            Serial No. 108-3

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

85-454              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Rob Bishop, Utah                     Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 6, 2003....................................     1

Statement of Members:
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................     6
        Prepared statement on H.R. 289...........................     7
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     2
        Prepared statement on H.R. 273, H.R. 274, H.R. 289, and 
          H.R. 417...............................................     2
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................    11
        Prepared statement on H.R. 417...........................    13
    Kaptur, Hon. Marcy, a Representative in Congress from the 
      State of Ohio..............................................     3
        Prepared statement on H.R. 289...........................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, Prepared statement on H.R. 273, 
      H.R. 274, H.R. 289, and H.R. 417...........................     3

Statement of Witnesses:
    Hogan, Matt, Deputy Director, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................    14
        Prepared statement on H.R. 273, H.R. 274, H.R. 289, and 
          H.R. 417...............................................    16


LEGISLATIVE HEARING ON H.R. 273, A BILL TO PROVIDE FOR THE ERADICATION 
 AND CONTROL OF NUTRIA IN MARYLAND AND LOUISIANA; H.R. 274, A BILL TO 
  AUTHORIZE THE SECRETARY OF THE INTERIOR TO ACQUIRE THE PROPERTY IN 
 CECIL COUNTY, MARYLAND, KNOWN AS GARRETT ISLAND FOR INCLUSION IN THE 
  BLACKWATER NATIONAL WILDLIFE REFUGE; H.R. 289, A BILL TO EXPAND THE 
   BOUNDARIES OF THE OTTAWA NATIONAL WILDLIFE REFUGE COMPLEX AND THE 
 DETROIT RIVER INTERNATIONAL WILDLIFE REFUGE; AND H.R. 417, A BILL TO 
 REVOKE A PUBLIC LAND ORDER WITH RESPECT TO CERTAIN LANDS ERRONEOUSLY 
      INCLUDED IN THE CIBOLA NATIONAL WILDLIFE REFUGE, CALIFORNIA.

                              ----------                              


                        Thursday, March 6, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:09 a.m. in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Saxton, Pallone, 
Faleomavaega, Ortiz, and Bordallo.
    Mr. Gilchrest. The Subcommittee will come to order. I ask 
unanimous consent that my full statement be put into the 
record.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. We are meeting this morning to talk about a 
number of bills, two of which concern the state of Maryland but 
a number of which concern Mr. Dingell, Ms. Kaptur and Mr. 
Hunter this morning with the nation's resources and the bounty 
of nature and how we can help restore its prodigiousness.
    So at this point we would like to have the three members 
come to the witness table, give us their testimony and we will 
work vigorously to ensure that the implementation of their 
ideas, their thoughts, their dreams, their visions will be a 
part of the American scene.
    At this point if we have any other opening statement from 
Mr. Pallone?
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good morning, today, the Subcommittee will review several pieces of 
legislation that were the subject of comprehensive hearings last year 
and were adopted overwhelmingly by the House of Representatives.
    The first bill is H.R. 273, the Nutria Eradication and Control Act. 
I am pleased to offer this proposal, along with our colleague from 
Louisiana, the Honorable Billy Tauzin. The fundamental goal of this 
legislation is to eradicate and control the growing population of 
nutria that are devastating thousands of acres of essential wetland 
habitat in the states of Maryland and Louisiana.
    Nutria are large semi-aquatic South American rodents that have a 
prolific appetite for marsh vegetation. At the Blackwater National 
Wildlife Refuge alone, nutria have destroyed at least 7,000 acres of 
wetlands and they are literally eating their way through the marshlands 
that exist at the nine National Wildlife Refuges on the Delmarva 
peninsula.
    The second bill is H.R. 274, a proposal I introduced to incorporate 
the ecologically important 198-acre Garrett Island within the existing 
Blackwater National Wildlife Refuge. Garrett Island, which is 
uninhabited, is the site of Maryland's second settlement in the early 
1600's, it is the only rocky island in the tidal waters of the 
Chesapeake Bay and it has a rich diversity of archeological, natural 
and wildlife resources.
    The third bill is H.R. 289 introduced by our colleagues Marcy 
Kaptur and John Dingell. This legislation would expand the boundaries 
of the Ottawa National Wildlife Refuge Complex and the Detroit River 
International Wildlife Refuge. We had an excellent hearing on a similar 
bill last year and a compelling case was made to conserve the valuable 
resources of the western basin of Lake Erie.
    Finally, we will hear testimony on H.R. 417, a bill referred to as 
the Cibola National Wildlife Refuge Correction Act. This measure will 
settle a title dispute between the U.S. Fish and Wildlife Service and 
the Bureau of Land Management and adjust the boundaries of the existing 
refuge. The U.S. Fish and Wildlife Service has previously testified 
that the 140 acres affected by this bill have almost no wildlife 
habitat value, they are not a desirable part of the refuge and the 
concession known as ``Walter's Camp'' should be supervised by the 
Bureau of Land Management. Thousands of people camp, canoe and windsurf 
at this facility each year and there seems to be consensus that it was 
a mistake to include this property within the refuge.
    I look forward to hearing from the sponsors of these measures and 
the U.S. Fish and Wildlife Service. I am pleased to recognize the 
ranking Democratic Member of the Subcommittee, the Honorable Frank 
Pallone.
                                 ______
                                 
    Mr. Pallone. Mr. Chairman, I suggest that we proceed with 
the members since they have been waiting for us. Thank you.
    [The prepared statement of Mr. Pallone follows:]

      Statement of The Honorable Frank Pallone, Ranking Democrat, 
 Subcommittee on Fisheries Conservation, Wildlife and Oceans, on H.R. 
                  273, H.R. 274, H.R. 289 and H.R. 417

    Thank you, Mr. Chairman. I look forward to this morning's hearing 
concerning several wildlife-related bills.
    I also want to welcome our colleagues, Congressman Duncan Hunter, 
Congresswoman Marcy Kaptur, and the Dean of the House of 
Representatives, Congressman John Dingell.
    It has often been mentioned that our nation's National Wildlife 
Refuge System is one of the Federal Government's best conservation 
investments. Since the creation of the first migratory bird refuge at 
Pelican Island in 1903 the System has grown to include over 535 refuges 
and 94 million acres.
    Most importantly, the Refuge System functions as our only network 
of lands and waters set aside exclusively for the benefit of fish and 
wildlife, including numerous threatened and endangered species.
    As such, our National Wildlife Refuges continue to provide 
indispensable habitat for fish and wildlife. They also ensure abundant 
opportunities for wildlife-oriented outdoor recreation enjoyed by over 
35 million visitors annually.
    Last year, this Subcommittee heard from a representative of the 
Administration that the time has come, perhaps, to curtail any further 
expansion of the Refuge System.
    At that time, my predecessor, the former ranking Democrat, Robert 
Underwood, acknowledged that the nearly $1 billion Refuge System 
operations and maintenance budget backlog is a significant limiting 
factor to be accounted for when considering new additions to the 
System. Nevertheless, such a change in policy would represent a 
significant and potentially troubling shift in the nation's approach 
toward wildlife conservation.
    In my estimation, proposals to expand the Refuge System should be 
considered within a broad conservationist context, regardless of 
whether the proposal is advanced by administrative action or through 
legislation. That context should consider how these potential additions 
would protect the ecological integrity of the Refuge System, and how 
they might further the purposes of the Refuge Administration Act. After 
all, the guiding principle of the National Wildlife Refuge System is an 
ethic of stewardship, which recognizes the ecological and cultural 
importance of responsible land and animal management.
    It is within this more appropriate context that I hope the 
Subcommittee will consider legislation to expand the Ottawa and 
Blackwater National Wildlife Refuges, and for that matter, other 
proposals that may be forthcoming to this Subcommittee.
    I ask, what reason is there for Congress to abandon opportunities 
to address unmet acquisition or expansion needs for our Refuge System 
simply to comply with an arbitrary change in policy by this 
Administration? After all, future costs for acquisition are only going 
to increase, not decrease.
    Furthermore, if it is the new policy of this Administration to 
postpone any further expansion of the Refuge System until the budget 
backlog is rectified, would it not be better for the Administration to 
adjust its own budget priorities to address the backlog first, rather 
than siphon off funds to support its own unauthorized budget 
initiatives?
    We need to ask these questions. Moreover, Congress needs to face 
the stark reality: if it hopes to have a Refuge System it can be 
equally proud of in the year 2103--the System's bi-centennial--it must 
find the will and the means to make the necessary investments today, 
tomorrow and in the future. Thank you.
                                 ______
                                 
    Mr. Gilchrest. I apologize for being late.
    Mr. Saxton?
    Ms. Kaptur, you may begin.

    STATEMENT OF THE HON. MARCY KAPTUR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Kaptur. Thank you, Mr. Chairman, Mr. Pallone, Mr. 
Saxton. It is our great pleasure to appear before you and I ask 
unanimous consent to insert the entire statement in the record.
    Mr. Gilchrest. Without objection.
    Ms. Kaptur. I must begin by saying I could not be here with 
two finer colleagues--to my right an elk hunter and to my left 
a duck hunter, from what they have been willing to reveal to 
us.
    Mr. Gilchrest. We are here to conserve today.
    Ms. Kaptur. It is a pleasure to again appear before you on 
behalf of H.R. 289, to expand the boundaries of the Ottawa 
National Wildlife Refuge Complex and the Detroit River 
International Wildlife Refuge and to thank this Committee, this 
Subcommittee, for being so generous to us during the last 
session. It was not for our efforts here in the House that the 
measure was not able to finally prevail but rather, because of 
difficulties on the Senate side and we were very, very hopeful 
last year and Mr. Chairman, we want to thank you for starting 
early. We think this is a wonderful indication that we can be 
successful this year.
    For the record I wish to state that we have very strong 
bipartisan support for our bill, including both senators from 
the state of Ohio, as well as from the state of Michigan. So 
Senators Voinovich, DeWine, Levin and Stabenow are all in 
support of our efforts. We have the support of the state of 
Ohio. As you will recall, the Ohio Department of Natural 
Resources director Sam Speck came to Washington last year to 
testify on behalf of this bill.
    Our legislation provides a vehicle by which the U.S. Fish 
and Wildlife Service can expand the boundaries of the Ottawa 
National Wildlife Refuge and also the Lower Detroit River 
International Wildlife Refuge. All transactions would be 
completely voluntary with no forced takings. It does not 
require the service to do anything it does not want to do and 
final determinations of whether to accept any donation of land 
or make an expansion of the boundaries would reside entirely 
within the director of the Fish and Wildlife Service Secretary 
of the Department of Interior's discretion.
    The legislation I must also say enjoys the broad support of 
our community along the north coast of Lake Erie and one is 
really hard pressed to understand how anyone could be opposed 
to such a win/win concept in one of America's most important 
flyways.
    Mr. Chairman, I also did want to stress that our region, 
Lake Erie, is the most drawn upon of the Great Lakes. We have a 
very fragile resource. It is also the most shallow of the Great 
Lakes. So we use it for drinking water but also for recreation 
and for commerce and the extraordinary importance of wildlife 
refuges, as well as wetlands, to the future health of this 
entire ecosystem, I could not stress more strongly how very 
important it is to provide this type of authority so that we 
can continue expanding our green necklace around our lake.
    And the resources of our own Department of Interior and the 
Fish and Wildlife Service are heavily concentrated west of the 
Mississippi River. I can tell you--and I think even the 
department is willing to admit about 70 percent of the refuges 
are in the state of Alaska--I can you that within 100 miles of 
my district is two-thirds of the population of the United 
States of America. We are a distribution hub. We have a lot of 
stresses as a result of our industrial and agricultural 
heritage. We are glad to have them but we also know that we 
cannot exist in an environment that continues to deteriorate.
    So we last year were able to secure $1.95 million for a new 
education center at the Ottawa National Wildlife Refuge to 
handle the increasing number of tourists also coming into our 
area for the Great Lakes, for the best swimming and fishing in 
the entire Great Lakes, and we also provided an additional 
$600,000 for land acquisition at Ottawa itself. So we are doing 
our part in order to try to build on this incredible system.
    And again I thank you very, very much for the opportunity 
to testify and I know that this Subcommittee will do what is 
right and best for the future. Thank you so very much.
    [The prepared statement of Ms. Kaptur follows:]

 Statement of The Honorable Marcy Kaptur, a Representative in Congress 
                         from the State of Ohio

    Thank you, Chairman Gilchrest, for this opportunity to testify on 
H.R. 289 to expand the boundaries of the Ottawa National Wildlife 
Refuge Complex and the Detroit River International Wildlife Refuge
    It is a pleasure to testify again before your Subcommittee. Let me 
thank you for your responsiveness in holding a hearing about my 
legislation to expand the boundaries of the Ottawa National Wildlife 
Refuge as well as the other important bills before you today.
    Let me also thank the Subcommittee for support of the same 
legislation, which passed the House of Representatives last year. We 
were hopeful when we sent the bill to the Senate in the waning days of 
the 107th Congress, but at the very end they were unable to pass it.
    We are extremely optimistic, Mr. Chairman, about the prospects for 
this legislation during the 108th Congress. We have strong bipartisan 
support, both in the House and in the Senate, particularly from 
Senators Voinovich and DeWine from Ohio as well as Senators Levin and 
Stabenow from Michigan. We have the support of the State of Ohio. As 
you will recall, Ohio Department of Natural Resources Director Sam 
Speck came to Washington last year to testify in support of the bill.
    Mr. Chairman, as you recall, this legislation merely provides a 
vehicle by which the U.S. Fish and Wildlife Service could expand the 
geographic boundaries of the Ottawa National Wildlife Refuge and also 
the Lower Detroit River International Wildlife Refuge. It does not 
involve forced takings. All transactions would be completely voluntary. 
It does not require the Service to do anything it does not want to do. 
Final determinations of whether to accept any donation of land or to 
make an expansion of the boundaries would reside entirely with the 
Director of the Fish and Wildlife Service and the Secretary of the 
Department of Interior.
    The legislation merely provides an important vehicle by which 
private individuals, private businesses, non-profit agencies, and the 
general public can express tangible support the Ottawa Refuge and the 
Lower Detroit International Refuge through donation of critical 
habitat. The legislation mirrors the comprehensive conservation plan 
that has been approved by the U.S. Fish and Wildlife Service. The 
legislation enjoys broad and deep support in our community and along 
the ``North Coast'' of Lake Erie. Indeed, Mr. Chairman, one is hard 
pressed to understand how anyone could be opposed to such a win-win 
concept.
    Mr. Chairman, great things are happening at both the Ottawa Refuge 
and the Lower Detroit Refuge. We see the Lower Detroit River Refuge and 
the Ottawa Refuge as the key gems in an emerald necklace around the 
western basin of Lake Erie. Congressman Dingell started this process 
with the Lower Detroit River legislation and we hope to complement his 
wonderful accomplishment.
    During the recent omnibus appropriations legislation, we were able 
to secure $1.95 million for a new education center at the Ottawa 
National Wildlife Refuge. Annual attendance will increase dramatically 
from the current 120,000, opening the wonders of the Ottawa Refuge to 
literally millions of schoolchildren and families in the coming years. 
An additional $600,000 was appropriated for land acquisition at Ottawa.
    During this centennial year of the national wildlife refuge system, 
the Ottawa Refuge is clearly on the move. We believe that we can raise 
the profile of the refuge dramatically while keeping intact its mission 
of preservation and conservation. We believe this legislation can help 
in that process while keeping intact individual property rights.
    Thank you, Mr. Chairman, for your time and the opportunity to 
testify.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Kaptur. I like the 
phrase ``green necklace.'' That is a positive addition to this 
effort on your part.
    Ms. Kaptur. They are all emeralds.
    Mr. Gilchrest. The Honorable Mr. Dingell, the dean of the 
House. Good morning, sir.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I will be as brief as possible 
out of respect for the Committee. I want to begin by thanking 
you, Mr. Saxton and Mr. Pallone for your kindness and also our 
good friend from Texas, Mr. Ortiz. We thank you.
    This is not a new bill to you so I will ask unanimous 
consent to insert the whole of my statement in the record and 
just make a few comments if I may.
    Mr. Gilchrest. Without objection, so ordered.
    Mr. Dingell. Mr. Chairman, this is not a new bill. You have 
seen it before and have acted on it expeditiously, graciously, 
efficiently and well and you understand the purposes. We who 
come from the Great Lakes love our lakes, just as you love the 
wonderful Chesapeake Bay, for largely the same reasons. They 
are a great treasure to us, as is the bay to you, and indeed as 
it is to all of us.
    Having said that, this bill follows the course that was 
taken by the original language of the legislation that created 
the Detroit River International Refuge. Ms. Kaptur in her 
wisdom felt that it was wise to extend those provisions clear 
around the western and the southwestern borders of the Lake 
Erie Basin. Regrettably, at the time we were moving forward on 
that it was not possible to do so.
    This is not legislation for massive land acquisitions. It 
is indeed really a mechanism for more cooperative management of 
the precious resource that is the shores of Lake Erie, 
cooperating between Federal, state, local, business, industry, 
ordinary citizens, and so forth. And I want to comment just a 
little bit so you can see the progress and the success we have 
had to the north on the Detroit River Refuge and how it would 
work and how it could be built upon under the leadership of Ms. 
Kaptur around the southwest part of the basin.
    We have had major donations of land from foundations, from 
industries, and we will shortly have a cooperative management 
agreement involving some 600 acres of really prime wetlands 
through the cooperation of Detroit Edison. We also have 
achieved purchase and donation of significant amounts of land 
through the assistance of foundations and conservation 
organizations. And interestingly enough, all of this has been 
accomplished in the fashion that you understand Fish and 
Wildlife does. It has all been done by willing purchases, 
willing donors, and negotiations between willing participants 
and parties.
    We anticipate that if everything goes well in the portions 
of the refuge that now exist we could have as much as 1,000 
acres by this fall under either Federal ownership or 
cooperative management arrangements or easements, with probably 
about 700 acres in fee ownership, interestingly, some of which 
will be Federal lands which are being transferred to Fish and 
Wildlife, including 160 acres under the administration of the 
Corps of Engineers, and other tracts of land which will be 
possible to include at very, very low cost.
    And isolated tracts can be managed together in an area like 
the Great Lakes for the unified benefit of the resource; i.e., 
ducks, fish, wildlife and geese, of which some 7 million ducks 
and geese are users of this area every spring and fall as they 
move north and south.
    So it is the refuge which we have created through the 
wisdom and guidance and leadership of this Committee. It has 
been a great success and it has achieved the universal support 
of citizens in the area--schools, universities, as well as 
conservation organizations, ordinary citizens, cities, 
counties, townships, and also businesses and industries who 
recognize that this is a possibility for us to all pull 
together in a remarkable way.
    We anticipate that there is a possibility of having a 
donation of as much as 200 acres to the Detroit River 
International Refuge system coming from a major U.S. 
corporation which has businesses along the shore.
    So this is an area where people are pulling together to 
save and to enhance a previous resource to the benefit of all. 
We have just recently gotten $1 million from the Federal 
Government which has gone into setting up a park and a refuge 
headquarters area and an interpretive center, which will be 
administered by the county.
    So everybody is pulling together. You can be proud of what 
you have done. I will try and see to it that as this matter is 
conducted it is not only a success but it is done in a way that 
you, Mr. Chairman and members of this Committee, would 
appreciate and would approve of and which will bring credit on 
this Committee because of the way the matter goes forward.
    With those remarks, Mr. Chairman, I am available for any 
questions. I thank you for your courtesy to me.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
            Congress from the State of Michigan, on H.R. 289

    Chairman Gilchrest, Ranking Member Pallone and other distinguished 
Members of the Subcommittee, good morning. It is an honor and a 
pleasure for me to appear before you today to testify in support of 
H.R. 289, legislation that will expand the boundaries of the Detroit 
River International Wildlife Refuge to encompass important lands in 
Southeastern Michigan and Northern Ohio. I thank the Subcommittee, as 
well as the Chairman of the full Committee Richard Pombo, and Ranking 
Member, Nick Rahall, for their assistance and for holding this hearing. 
This legislation is of immense importance to the people of Southeast 
Michigan and our neighbors to the South, in Ohio.
    Mr. Chairman, in 2001, thanks to this Committee, and to support 
from local grassroots organizations, conservation groups, state and 
local governments, as well as our Canadian neighbors, we were able to 
pass H.R. 1230, legislation that created the Detroit River 
International Wildlife Refuge. This refuge is already demonstrating 
how--working as a team--federal, state, and local officials in the 
United States and Canada, can work with businesses, conservationists 
and private citizens to preserve our remaining resources along the 
River that is improving the quality of life for all our area residents. 
H.R. 289 builds on that success.
    We passed H.R. 1230 because the Lower Detroit River is an area of 
tremendous bio-diversity, with unique geological features and a wide 
variety of plant life that attracts numerous species of fish, birds, 
and waterfowl. Like many rivers along the Great Lakes, the Detroit 
River has suffered the consequences of prolonged periods of unsound 
environmental practices'more than 95 percent of its coastal wetland 
habitat have been lost.
    In the Great Lakes region, there is a great urgency to protect our 
remaining high-quality habitats before they are lost to further 
development. We must also do our utmost to rehabilitate and enhance 
degraded habitat. This is essential to sustain the quality of life 
enjoyed by the people living along the Detroit River corridor. The 
Detroit River Wildlife Refuge was a good start, but more must be done. 
It is my hope that in time, much of the Great Lakes coastline will be 
protected using the same commonsense approach of H.R. 1230.
    We are here this morning to discuss legislation introduced by my 
neighbor to the South, the Honorable Gentlewoman from Toledo, Marcy 
Kaptur. Ms. Kaptur's bill, which has my complete support, will expand 
the Detroit River International Wildlife Refuge to the Western basin on 
Lake Erie. I am proud to be an original cosponsor of H.R. 289, and I 
applaud the efforts of my colleague and friend from Ohio for 
introducing this important bill.
    The Western basin of Lake Erie is vitally important to the economic 
and environmental future of the United States. In the 1970's and 
``80's, the ecological health of Lake Erie was a running joke--
Fisherman derisively renamed Lake Erie ``the Dead Sea.'' Water quality 
was poor, and fish and wildlife suffered as a result.
    But in the past two decades, the citizens and governmental 
institutions of both the United States and Canada have devoted 
increasing attention and resources to the restoration of the water 
quality and the fisheries of the Great Lakes, including the Western 
basin. Numerous grassroots environmental and conservation organizations 
have worked dutifully to address environmental degradation in the 
region. I am happy to say that these efforts have been successful, 
though there is still much more that must be done.
    The Great Lakes account for more than 90 percent of the surface 
freshwater in the nation. The Western basin receives approximately 90 
percent of its flow from the Detroit River and only 10 percent from 
tributaries. The Western basin of Lake Erie is an important ecosystem 
that includes a number of distinct islands, channels, rivers, and 
shoals that support dense populations of fish, wildlife, and aquatic 
plants.
    The coastal wetlands of Lake Erie support the largest diversity of 
plant and wildlife species in the Great Lakes. More than 320 species of 
birds and 43 species of fish have been identified in the aquatic and 
wetland habitats of the Western basin. The shallow Western basin is 
home to the largest concentration of marshes in Lake Erie, which makes 
it a major migratory bird corridor. Seventy percent of the Mississippi 
Flyway population of black ducks is concentrated in the Lake Erie 
marshes during fall migration.
    The importance of Lake Erie is manifested in the United States 
congressional designation of the Ottawa and Cedar Point National 
Wildlife Refuges. Lake Erie has an international reputation for 
walleye, perch, and bass fishing, as well as duck hunting. On an 
economic basis, Lake Erie tourism accounts for an estimated 
$1,500,000,000 in retail sales and more than 50,000 jobs.
    Coastal wetlands in the Western basin have been subjected to 
intense pressure for 150 years. In fact, 98 percent of the vast coastal 
wetlands systems that existed in Western Lake Erie in the early 1800's 
has been lost. What was once a system of 1,540 square miles today has 
been decreased to 38 square miles. Along the Michigan shoreline, 
coastal wetlands were reduced by 62 percent between 1916 and the early 
1970s.
    H.R. 289 is very similar in content to H.R. 1230, which this 
Committee approved in 2001. It aims to protect the remaining fish and 
wildlife habitats of the western Lake Erie, assist in international 
efforts to conserve and restore wildlife habitat, and facilitate 
partnerships between the United States Fish and Wildlife Service, 
Canadian national and provincial authorities, and a wide array of 
private and public sector entities.
    In Michigan, the Refuge will run from the southern boundary of 
Sterling State Park to the eastern edge of Sandusky Bay, Ohio. The 
Secretary of Interior is authorized to acquire by donation, purchase 
with donated or appropriated funds, or grant conservation easements 
within the boundaries of the Refuge. Any and all acquisitions of lands 
are voluntary, and Federal takings are strictly prohibited. I would 
note that the Secretary shall administer all Federally owned lands, 
waters, and interests within the Refuge in accordance with the National 
Wildlife Refuge System Administration Act. Thus, the rights of 
sportsmen like myself will be fully protected.
    It is because this bill is sensible, balanced and foresighted that 
it enjoys broad local support in Michigan, Ohio, Canada and beyond. I 
would note that H.R. 1230, the predecessor to H.R. 289, also enjoyed 
broad support from business and conservation groups, as well as from 
local governments.
    Mr. Chairman, I again thank the Committee for their assistance. Ms. 
Kaptur's bill is an important piece of legislation which will be of 
great benefit to the people of Michigan, Ohio, and Ontario, and 
represents a sound approach to protecting, preserving, and restoring 
the wildlife habitat of the Great Lakes.
    Thank you again for the opportunity to testify before you today, 
and I would be happy to answer any of your questions or concern at this 
time.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Dingell and Ms. Kaptur, and 
we will move again expeditiously with your assistance to make 
this a reality. I think it is a great idea.
    Any questions from any members of the Subcommittee?
    Thank you, Mr. Dingell and Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. In closing I just 
wanted to thank my colleague, Mr. Dingell, for inspiring this 
effort and for his wonderful, wonderful leadership in so many 
ways.
    And I wanted to acknowledge the presence on the 
Subcommittee of my dear friends Congressman Ortiz, a member of 
the 98th class along with myself.
    Mr. Ortiz. 1983.
    Ms. Kaptur. Yes, 1983, the 98th Congress.
    Mr. Ortiz. That is correct.
    May I say something? I am so moved by having these 
distinguished members. Marcy Kaptur and I came to Congress back 
in 1983 and to have the dean of the House of Representatives 
among us and then the Chairman of my Armed Services Committee. 
I am very, very moved. I believe everything you said. We are 
happy to have you with us.
    Mr. Dingell. I am honored to be in the company of Mr. 
Hunter.
    Mr. Hunter. I have not even talked yet.
    Ms. Kaptur. Mr. Chairman, I also wanted to thank 
Congressman Faleomavaega. We worked on so many issues together 
and I did not acknowledge him in my opening remarks, so I 
wanted to make sure and thank both gentlemen for their past 
support and for your current support. Thank you so much.
    Mr. Ortiz. Thank you, Marcy.
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Gilchrest. Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, very quickly, I also would 
like to echo the sentiments expressed earlier by my colleague 
from Texas to welcome such distinguished members of the panel, 
our good friends Mr. Dingell and Marcy and the distinguished 
Chairman of the Armed Services Committee, Mr. Duncan. This is a 
real rare honor for our Subcommittee to have such heavyweights 
here testifying.
    And I do want to say, Mr. Chairman, relying in good faith 
on their advocating these three bills, Mr. Chairman, I do 
support these proposed bills and sincerely hope that we will 
mark them up and get them out of the way as soon as possible. 
Thank you, Mr. Chairman.
    Mr. Gilchrest. Mr. Saxton?
    Mr. Saxton. I just wanted to ask, this process is obviously 
a process of compromise and I would just like to ask Ms. Kaptur 
and Mr. Dingell if there have been compromises in the past on 
the areas to be included. I have two maps here. One shows quite 
a bit of land to be conveyed and the one that we actually are 
dealing with now shows an amount of land that is much less.
    I guess the question is you been obviously working with 
other parties and you have come to an agreement on the lands 
that would most appropriately be included, is that correct?
    Ms. Kaptur. That is correct, Mr. Saxton, Congressman 
Saxton. We initially, in working with the Department of 
Interior and the Fish and Wildlife Service, were trying to 
decide the scope of the boundaries themselves and there was 
some discussion particularly relative to the Maumee River which 
flows through my district and how far upstream to go or whether 
to go there at all.
    So these are mutually agreed upon boundaries and I would 
ask my dear colleague from the north if he wants to add 
anything to that in terms of the boundaries up on the Wolverine 
side of this.
    Mr. Dingell. Thank you. My colleague asks a very good 
question. There are two matters here that are always under 
concern when we set up a refuge. One is what will be the refuge 
boundaries and the other is what would be the particular lands 
to be acquired.
    It is pretty hard to give you an answer on either of these 
questions. Quite frankly, the wisdom of this Committee, I 
think, would be relied on very heavily by me to decide what the 
overall meets and bounds of the overall area of the refuge 
should be.
    With regard to the more specific question of acquisition of 
lands or interest in lands, that would have to be addressed 
over a greater period of time.
    In the case of the refuge to the north, the Detroit River, 
we had a donation of about 50 acres. We put in about 320 acres 
of land that was already in the refuge system. There is $3.5 
million for the purchase of another 400 acres, the remaining 
tract of virgin timber and marsh on the entire Detroit River, 
one of the most heavily settled areas in the United States. 
Edison is getting ready to give a cooperative management 
arrangement to the Department of Interior for 600 acres of 
land. A major conservation foundation came forward with about 
20 acres of land on a wonderful little island out in the river. 
There with acquisition with migratory bird fund monies of 160 
acres and the Corps of Engineers will shortly be transferring 
160 acres to this refuge.
    In addition to this, there is an old Nike site at the south 
end of Gross Eel, which is a large island on the river which 
you have looked at which is being transferred to Fish and 
Wildlife with the full support of everybody. BASF is 
contemplating making a donation of 200 acres at the north end 
of Gross Eel Island.
    All of this is voluntary negotiation. Voluntary 
negotiations are conducted at arms length by friendly 
discussants and the matter has been going forward with 
extraordinary goodwill on the part of all concerned. We have 
not had a criticism of this refuge from any responsible source.
    Ms. Kaptur. Mr. Chairman, may I just add? I am glad Mr. 
Saxon asked that question because the original map for the 
portion in Ohio included a much larger area and one of the 
reasons we attempted to do that, although the Department of 
Interior did not agree--we reached a compromise on a much 
smaller area--is because if you look at the ecosystem of our 
region there is something called the Oak Openings Area which is 
an oak savannah which actually should exist on the East Coast 
but because of receding lake levels in past centuries, we have 
been left with an eastern beach system in the middle of the 
Midwest. And local park systems, the metro park systems and 
private donations over a number of years have created this 
vast--and the Nature Conservancy has been involved in 
conservancy efforts of this area called the Oak Opening 
Savannah System.
    We were hoping that this could all be under the same 
umbrella. All of that is locally managed and state managed. 
When the department did not see the wisdom of doing that, the 
area was delimited a little bit more. They are very heavily 
related because there is an area of hardwoods there and then 
you have the freshwater and then you have the flyways that we 
have been restoring over the years.
    And by the way, with the restoration of the flyways, the 
number of eagles coming back to the Great Lakes is up. When we 
started this effort I think we had like four nesting pairs. I 
think we are up to 78 or more now, 78 nesting pairs. So you can 
see over the years ago the restoration of a very fragile 
ecosystem that was in deep trouble.
    We did include in the minimized boundaries the Lake Erie 
islands, which are very important. One of those islands, West 
Sister Island, is the only national wildlife bird refuge up 
there.
    So if you were to ask me am I totally pleased with the 
boundaries for Ohio? No, not really, because it shows a lack of 
understanding of the connectivity of the various systems we are 
dealing with there, but it is certainly better than nothing and 
it is something that we can build upon. So I just did want to 
enter that for the record and I appreciate Congressman Saxon 
asking the question.
    Mr. Gilchrest. Thank you very much, Ms. Kaptur.
    Comment from Mr. Pallone?
    Mr. Pallone. I just wanted to say that we are going to try 
to expedite the legislation as quickly as possible in both 
cases, both bills, because I realize that a lot of time has 
been spent on it and that really we should try to get it moving 
as quickly as possible. Thank you all for being here.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    For the sake of time and efficiency we are going to go to 
the gentleman who is famous for elk hunting. We would like to 
bring him over to the Eastern Shore to help eradicate this 
little critter called nutria. I am sure Duncan could bring his 
team and perform that service for us. Mr. Hunter, thank you for 
coming this morning and testifying on behalf of your 
legislation.

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman. It is kind of neat to 
be here with such great colleagues, with Marcy and John. 
Actually, along with being the dean of the House, Mr. Dingell 
clearly is the best shot in the House, also. I have a lot of 
respect for him. And it is neat to be here with you and with my 
great colleagues on the Armed Services Committee. We have a lot 
of them here, with Mr. Saxton and also my outdoors comrade here 
who has shared some days afield with me and with Ms. Bordallo, 
who is a new member of the Armed Services Committee, and Mr. 
Ortiz, who went down to Honduras when the 82nd Airborne jumped 
in and we received them together there. And Mr. Faleomavaega, 
who is a great friend, and Mr. Pallone. So thank you all for 
letting us testify.
    What I have hopefully should be an easy one. It is 
something you passed last year and the Senate never acted on 
it. It essentially is a small piece of land, 140 acres, on the 
Colorado River next to the Cibola Refuge. It is called Walter's 
Camp and it is kind of a little family getaway. It is a little 
place you can come and camp and rockhound or fish or hike or 
whatever in that very interesting desert country. Unfortunately 
when the land withdrawal was executed for the Cibola National 
Wildlife Refuge they pulled out a little over 16,000 acres of 
land and they unfortunately and mistakenly included Walter's 
Camp, which is owned by Frank Dokter, who in fact testified to 
you last year on this. They actually included that in the 
refuge lines and that was never discovered until just a few 
years ago.
    So the BLM has been leasing this concession, this little 
getaway for working families, and they never realized it had 
actually been included in the wildlife boundaries. Fish and 
Wildlife has certified that there is no significant wildlife 
habitat value in this 140 acres, so they have signed off on 
this. And we would hope that we could just renew the 
legislation that you did last year and this time try to get the 
Senate to move on it in a timely way.
    I am also informed, and Larissa Bounds on my staff has been 
just great on this. Is Larissa here? She is right behind me and 
she informed me that there is actually kind of a short fuse on 
this because this concession runs out again and needs to be 
renewed. So if we do not act in a timely fashion Frank Dokter 
and his family who run this little getaway may be out on the 
street, so to speak. So I would hope that you folks could make 
that happen.
    And Mr. Chairman, I just want to thank you for all of your 
contributions to recreational sports and activities. I know you 
used to let me go borrow your canoe that you would pull out of 
the hayloft down there at the wharf and the one time when I 
came in with my cousins and we tried to kind of get out of the 
canoe and slip away and you noticed that we were all wet. I had 
one cousin who tried to jump off the little bridge onto the 
canoe and upended all of us.
    Then I recall the time you came out to rescue us in your 
kayak because we had not come in and it was dark and we were 
all singing, so you were able to--it was like ``Row the Boat 
Ashore'' or something. You were able to locate us and navigate 
us in.
    Mr. Gilchrest. You were singing that song ``Michael Row the 
Boat Ashore.'' You could not see your hand in front of your 
face it was so dark. They left in the morning and it was 10 at 
night and my wife wanted me to call the Coast Guard. So I 
paddled out there, not being able to see anything, but I could 
hear them singing.
    Mr. Hunter. We are very religious.
    Mr. Gilchrest. I do not think it was your cousin that 
tipped the canoe. I understood it was a beaver that tipped the 
canoe.
    Mr. Hunter. Anyway, we had a great time.
    And Mr. Saxton, I have been on some trips afield with him 
and he seems to forget the flashlight now and then when we are 
going out, when we are going to be out at dark, and that has 
really impeded our expeditions.
    Anyway, thank you for considering this legislation. It is 
neat to be here with my colleagues. We have done a lot of 
things together and it is nice to be with this great team and 
appearing before such neat colleagues. Thank you.
    [The prepared statement of Mr. Hunter follows:

Statement of The Honorable Duncan Hunter, a Representative in Congress 
               from the State of California, on H.R. 417

    Mr. Chairman, I would like to thank you for holding this important 
hearing on H.R. 417, which is necessary to right a past error by the 
Department of Interior in designating the Cibola National Wildlife 
Refuge. Mr. Frank Dokter, a former constituent whose family business 
depends on the outcome of this legislation, testified before this panel 
last year on a similar bill. Although it passed the House, the Senate 
unfortunately could not act before the end of the 107th Congress.
    Mr. Dokter and his family operate Walter's Camp, a Bureau of Land 
Management (BLM) concession on land near the lower Colorado River in 
Imperial County, California, near and within the Cibola Refuge. The 
facility provides visitors with a family-friendly outdoors experience, 
which includes camping, hiking, canoeing, fishing, birdwatching and 
rock-hounding. In an increasingly crowded Southern California, Mr. 
Dokter and his family have provided a welcome diversion from city life 
to many of the region's outdoors enthusiasts.
    Walter's Camp was first authorized in 1962, and in August 1964, 
Public Land Order 3442 withdrew 16,627 acres along the Colorado River 
to create the Refuge. The withdrawal erroneously included the 140.32 
acre Walter's Camp, but neither the BLM nor the Fish and Wildlife 
Service immediately recognized the mistake. The BLM continued to renew 
the original permit, allowing the recreational concession use to 
continue unbroken until the present time. However, given the discovery 
of the past mistake, the BLM does not have the authority to continue 
issuing the concession contracts to Walter's Camp.
    The Fish and Wildlife Service and the BLM agree that the land has 
``insignificant, if any, existing...or potential...wildlife habitat 
value,'' as stated in a Department of Interior memo. Therefore, I have 
introduced H.R. 417 to correct this mistake and allow the BLM to 
continue to issue contracts to Walter's Camp.
    Mr. Chairman and Members of the Subcommittee, I offer my sincere 
recommendation that this land be taken out of the Cibola National 
Wildlife Refuge, and that Mr. Dokter's family be allowed to continue to 
operate their small business providing visiting families with a 
valuable outdoor getaway.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Duncan.
    The three of you have done enormous things in your capacity 
as public servants for this great nation and all of us want to 
extend that sense of appreciation to each of you.
    Are there any questions for--Mr. Saxton?
    Mr. Saxton. Just one quick one. I would just like to ask 
Mr. Hunter. He mentioned that this has a short fuse. What are 
we talking about here in terms of time?
    Mr. Hunter. I want to let Larissa testify on this. What is 
it, Larissa?
    Ms. Bounds. I think it is under 6 months.
    Mr. Hunter. She thinks it is under 6 months before the 
lease expires, but we will get that exactly for you, Mr. Saxon.
    Mr. Saxton. That would be great and we will try to do our 
job here and we will try to help you get some attention over in 
the Senate, as well.
    Mr. Hunter. I really appreciate that. Thank you.
    Mr. Gilchrest. Mr. Hunter, Ms. Kaptur and Mr. Dingell, 
thank you very much and we will, as has been stated, we will 
move expeditiously to move this as quickly as possible out of 
the House and the Senate.
    Mr. Dingell. Mr. Chairman, thank you. This Committee under 
your leadership does great work and it is a pleasure to appear 
with my two colleagues, especially my friend Mr. Hunter over 
here.
    Ms. Kaptur. Now wait a minute. Especially?
    Mr. Hunter. Marcy, if you would get a couple of guns you 
could be a good old boy, too.
    Mr. Gilchrest. Thank you very much.
    Our second panel will be Mr. Matt Hogan, Deputy Director, 
U.S. Fish and Wildlife Service, Department of the Interior, 
testifying this morning on H.R. 273, H.R. 274, H.R. 289 and 
H.R. 417. Did they send you here alone, Mr. Hogan?
    Mr. Hogan. No, they sent me with a full entourage. I was 
told I was not allowed to come up here by myself.
    Mr. Gilchrest. That is good. I glad you have some team 
members with you. Thank you very much and we look forward to 
your testimony, Mr. Hogan, and you may begin.

  STATEMENT OF MATT HOGAN, DEPUTY DIRECTOR, FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hogan. Thank you, Mr. Chairman and members of the 
Subcommittee. As you said, I am Matt Hogan, deputy director of 
the U.S. Fish and Wildlife Service. I appreciate this 
opportunity to provide the Administration's views on the four 
bills before the Subcommittee today. I request that my written 
testimony be made part of the official record.
    Mr. Gilchrest. Without objection.
    Mr. Hogan. Thank you, Mr. Chairman.
    H.R. 289 authorizes the expansion of the Ottawa National 
Wildlife Refuge Complex and the Detroit River International 
Wildlife Refuge. As I will further explain, the Administration 
cannot support this legislation.
    We are preparing a draft Comprehensive Conservation Plan or 
CCP for the newly established Detroit River International 
Wildlife Refuge, which will include a review of the Michigan 
portion of the proposed expansion outlined in H.R. 289. The 
public will have the opportunity to comment on this draft once 
it becomes available for review.
    In 1994, after public review and comment, we adopted an 
increase in the size of the Ottawa Complex, totaling 5,000 
acres. In 2000, after another round of extensive public review 
and comment, we completed a CCP for the Ottawa Complex that did 
not propose an expansion beyond the 5,000 acres adopted in 
1994. To date we have purchased 552 acres in the approved 
expansion area at a cost of $1.3 million with an additional 
600-acre acquisition currently in progress.
    In contrast to this 5,000-acre expansion, H.R. 289 would 
commit the service to a massive expansion of the refuge system 
in the same area. The geographic scope of the proposal includes 
over 80 miles of coastline covering 40,000 acres.
    Mr. Chairman, the Administration is committed to taking 
better care of what we have while ensuring that the new 
acquisitions truly meet strategic needs of the refuge system. 
This includes purchasing in-holdings within currently approved 
refuge boundaries, such as areas within the currently approved 
5,000-acre expansion area.
    Given that we concluded less than 3 years that such a 
large-scale expansion in this area was not needed, we cannot 
support it now. We note that other opportunities and tools 
exist for protecting resources in Lake Erie's Western Basin 
besides including lands in the refuge system.
    H.R. 274 authorizes the expansion of the Blackwater 
National Wildlife Refuge to include Garrett Island. As 
discussed in detail in my written remarks, the Administration 
cannot support this legislation.
    At the request of the Subcommittee in June 2002, service 
biologists reviewed wetlands and wildlife habitat types 
occurring on the island through an analysis of maps, aerial 
photographs, soil surveys, biological data collected by various 
agencies, and a field inspection on August 8. The service 
provided a report to you, Mr. Chairman, in September of last 
year. In our report we noted that human activity and 
disturbance are evident on some parts of the island, such as 
along the railroad and Route 40 right-of-ways that directly 
traverse the island and old quarry site. We also identified the 
archeological and historic importance of the island based on 
its location, its history, and its association with important 
persons and events. Ownership by the state of Maryland or a 
nongovernmental organization focused on archeological 
preservation or a Federal agency focused on cultural resource 
management may be more appropriate to protect these 
archeological sites on the island.
    We are currently developing a CCP or Comprehensive 
Conservation Plan for the Blackwater Refuge that will include 
consideration of whether to recommend enlargement of the 
boundary of the refuge. We are working in close cooperation 
with the state and local government and partners in that 
process.
    We appreciate that you and your constituents would turn to 
the Fish and Wildlife Service as custodians of Garrett Island. 
However, given our priorities and funding constraints, in 
addition to the findings of the September 2002 report, we 
cannot support H.R. 274. Nevertheless, the service is willing 
to provide technical assistance to help you and your 
constituents with this issue.
    H.R. 417, as Mr. Hunter pointed out, will correct an error 
by returning to the Bureau of Land Management a small area of 
approximately 140 acres of the Cibola National Wildlife Refuge 
located in California. Prior to 1964 this property fell under 
the jurisdiction of the BLM and beginning in 1962 the BLM 
issued a concession permit on the lands now in question. After 
discovery the property was within the Cibola National Wildlife 
Refuge, BLM could no longer issue this concession permit.
    Since the inclusion of these lands was certainly a mistake 
due to the prior existence of the concession, we believe the 
most equitable solution is removal of the lands from the 
refuge. In addition, as Mr. Hunter pointed out, there is no 
wildlife value on the 140 acres in question. For this reason we 
support the bill and urge prompt action on H.R. 417.
    Finally, H.R. 273, the Service commends the Chairman and 
the Committee for recognizing the significant threat posed by 
nutria to the Chesapeake Bay ecosystem. The Service has a long 
history of commitment to protecting and enhancing the fish and 
wildlife resources of the bay through our cooperative efforts 
with the states, private landowners, and through habitat 
management conducted on National Wildlife Refuges. The Service 
cooperates with numerous parties to identify priorities for 
nutria prevention and control work. The Service fully 
recognizes the threat posed by nutria and we remain fully 
committed to cooperative nutria eradication.
    The President's 2004 budget request includes $699,000 from 
the Partners for Fish and Wildlife program and $799,000 from 
Refuge Operations funding to meet our nutria control project 
obligations for Fiscal Year 2004, an increase of $1 million 
above the 2003 request.
    During the past year the nutria program completed the 
testing of various trapping strategies in the original study 
site locations on approximately 3,600 acres. Based on this 
success, the program will move ahead and include the entire 
acreage of the Blackwater National Wildlife Refuge Fishing Bay 
Wildlife Management Area and Tudor Farms in Dorchester County.
    We are encouraged by H.R. 273 and we stand ready to work 
with the Committee and you, Mr. Chairman. We recognize the need 
to continue cooperative efforts and we plan to continue funding 
nutria eradication within the priorities identified in the 
president's budget.
    Mr. Chairman, that concludes my prepared statement. I will 
be pleased to respond to any questions that you might have.
    [The prepared statement of Mr. Hogan follows:]

 Statement of Matt Hogan, Deputy Director, Fish and Wildlife Service, 
 U.S. Department of the Interior, on H.R. 289, H.R. 274, H.R. 417, and 
                                H.R. 273

    Mr. Chairman, and members of the Subcommittee, I am Matt Hogan, 
Deputy Director of the U.S. Fish and Wildlife Service (Service).
    I appreciate this opportunity to provide the Administration's views 
on four bills before the Committee, the proposed expansion of the 
Ottawa National Wildlife Refuge (NWR) Complex and Detroit River 
International Wildlife Refuge, the proposed expansion of Blackwater 
NWR, the revocation of land from Cibola NWR, and the Nutria Eradication 
and Control Act.

H.R. 289--Ottawa NWR
    H.R. 289 authorizes expansion of the Ottawa NWR Complex and the 
Detroit River International Wildlife Refuge. As discussed more fully 
below, the Administration cannot support this legislation.
    I would like to begin by giving you a brief summary of Service 
involvement in the Lake Erie region. Coastal wetlands within the 
western basin of Lake Erie are of significant importance to fish and 
wildlife trust resources. These wetlands provide spawning, nursery and 
rearing habitat for some 43 wetland-dependent fish species, 26 of which 
have significant recreational, commercial or prey value. More than 325 
species of birds can be found in the western Lake Erie basin, and the 
area annually attracts hundreds of thousands of migrating waterfowl. 
The area is also an important staging area for migrating songbirds. 
Recognizing these important resources, the State of Ohio established 
numerous State Wildlife Areas, Nature Preserves, and Parks in this 
region.
    The Service is active in efforts to protect and restore coastal 
wetlands within this geographic area and we realize the economic, 
public use and environmental benefits of protecting and restoring the 
coastal wetlands of Lake Erie. In fact, we have four existing refuges 
in the area. These refuges are the Cedar Point NWR, Ottawa NWR, West 
Sister Island NWR, and the recently established Detroit River 
International Wildlife Refuge.
    The National Wildlife Refuge System Improvement Act of 1997 
requires the Service to develop a Comprehensive Conservation Plan (CCP) 
for each refuge in the National Wildlife Refuge System (NWRS). The CCP 
describes the desired future conditions of a refuge and provides long-
range guidance and management direction to achieve refuge purposes. It 
is during this process that expansion of a refuge is considered and 
recommended if increasing the size will help fulfill the purpose for 
which the refuge was established. Development of a CCP provides a forum 
for meaningful public participation and improved coordination with the 
states and local communities. It also affords local citizens an 
opportunity to help shape future management of a refuge, recognizing 
the important role of refuges in nearby communities.
    We are preparing a draft CCP for the newly established Detroit 
River International Wildlife Refuge, which will include review of the 
Michigan portion of the proposed expansion outlined in H.R. 289. The 
public will have the opportunity to comment on this draft once it 
becomes available for review.
    In 1994 we proposed an expansion for the Ottawa NWR Complex, which 
includes Cedar Point, Ottawa and West Sister Island. After public 
review and comment, we adopted an increase in the size of the complex 
totaling 5,000 acres, by including high-priority wetland habitat areas 
in Lucas, Sandusky, Ottawa and Erie Counties, the same general 
geographic area as the Ohio portion of the proposed expansion for the 
Ottawa NWR. To date, we have purchased 552 acres in the approved 
expansion area at a cost of $1,306,200
    In 2000, we completed a CCP for the Ottawa NWR Complex. After 
extensive public review and comment, this CCP did not propose an 
expansion for the Complex beyond the 5,000 acres previously approved.
    In contrast to the 5,000-acre expansion included in the CCP, H.R. 
289 would commit the Service to a massive expansion of the Refuge 
System in the same area. The geographic scope of the proposal includes 
over 80 miles of coastline covering forty-thousand acres or more.
    The Administration is committed to taking better care of what we 
have, while ensuring that new acquisitions truly meet strategic needs 
of the Refuge System. This includes purchasingin-holdings within currently approved refuge boundaries. There must be a balance between acquiring new lands and meeting the operational, maintenance and restoration requirements for the resources already in public ownership. Towards this end, the Service is currently developing a plan to guide future growth and land acquisition 
for the Refuge System.
    Establishing new refuges or significantly expanding existing ones 
compromises our ability to address needs at existing refuges.
    The Service is currently conducting condition assessments at all of 
its refuges facilities. Condition assessments have been completed at 40 
percent of refuge facilities and the Service expects the remaining 60 
percent to be assessed by the end of 2005.
    In addition to the national priorities and funding constraints 
discussed above, we have already evaluated a major portion of this 
area, and are in the process of evaluating the remainder. After a 
careful review of the Ohio portion of the land covered by this bill, we 
have concluded, after two different public comment periods several 
years apart, that a 5,000-acre expansion of Refuge System holdings is 
all that is needed. We are now conducting such a review of the Michigan 
lands covered by this legislation through the Detroit River 
International Wildlife Refuge CCP.
    We appreciate that Representative Kaptur and her constituents seek 
to have the Fish and Wildlife Service expand its role in the Ottawa NWR 
and the Detroit River International National Wildlife Refuge. Given 
that we concluded less than two years ago that such a large-scale 
expansion in this area was not needed, we cannot support it now.
    We note that other opportunities and tools exist for protecting 
resources in Lake Erie's Western Basin besides including lands in the 
Refuge System. Service programs such as Partners for Fish and Wildlife, 
the North American Wetlands Conservation Act, the Landowner Incentive 
Program, and Private Stewardship Grants can be used in cooperation with 
State, local and private partners to restore and protect natural 
resources. The States of Ohio and Michigan also receive funds through 
the Federal Aid in Wildlife Restoration, Federal Aid in Sport Fish 
Restoration, and state wildlife grants.

H.R. 274--Blackwater NWR--Garrett Island
    H.R. 274 authorizes the expansion of the Blackwater NWR to include 
Garrett Island in the NWRS. As discussed more fully below, the 
Administration cannot support this legislation. This undeveloped 
island, located in Cecil County, Maryland, has generated protection and 
acquisition interest from the Maryland Department of Natural Resources 
and the Cecil County Land Trust, a local environmental interest group. 
In an attempt to explain our position, I would like to give you a brief 
summary of Service involvement in the Blackwater NWR, our activities in 
proximity to Garrett Island, and what we currently know about the 
natural resources associated with the island.
    The Chesapeake Marshlands NWR Complex includes Blackwater NWR, 
Martin NWR, and Susquehanna NWR. Blackwater NWR was initially 
established to protect and manage habitat for migratory birds, and is 
designated as an International Birding Area and a Wetland of 
International Importance under the Ramsar Convention.
    Garrett Island is located in the Susquehanna River, approximately 
five miles north of what remains of the Susquehanna NWR, which is one 
hundred miles north of the Complex office. At the request of the 
Subcommittee in June 2002, Service biologists reviewed wetlands and 
wildlife habitat types occurring on the island, through an analysis of 
maps, aerial photographs, soil surveys, biological data collected by 
various agencies, and a field inspection on August 8, 2002. The Service 
provided the report to the Chairman on September 11, 2002.
    The island is approximately 180 acres in size, slightly less than a 
mile long (north-south) and about one-half mile in width. It exhibits a 
great deal of topographic relief, with the highest and steepest west-
central section reaching approximately 100 feet above sea level. The 
shoreline is rocky along the upper end and along the western sides. A 
sandy shoreline predominates the lower portion, especially along the 
eastern side where some accretion has occurred. In general, the 
majority of the island consists of forested upland habitat, with 
limited tracts of wetland in the center and along the eastern 
shoreline. Portions of the island were once farmed and/or pastured, 
resulting in the forest re-growth present today. Human activity and 
disturbance are evident on some parts of the island, such as along the 
Railroad and Route 40 rights-of-way that directly traverse the island 
and the old quarry site in the west-center of the island. A forested/
shrub wetland, approximately 20 acres in size, is located between the 
bridges on soils mapped as tidal marsh. This area is subject to fresh 
tidal flooding during the highest tides.
    The Service's Maryland Fisheries Resource Office has sampled the 
river in the Garrett Island vicinity and report a typical assemblage of 
fish species for the area. The Service's Division of Ecological 
Services has no records of Federally-listed threatened or endangered 
species in the area. The Maryland Department of Natural Resource's 
Heritage Program has no records of state threatened or endangered 
species.
    Garrett Island does have archaeological and historic importance 
based on several factors: its environmental setting in the extreme 
upper portion of Chesapeake Bay near the mouth of the Susquehanna 
River; its witness of the majority of regional human history; and its 
association with important persons and events in state, regional, and 
national history, particularly in early colonial years. At least one 
known site is likely to have high archaeological research value, and 
more sites with high information potential are likely to be uncovered 
in the future. Ownership by Maryland's State Historic Preservation 
Office, a non-government organization focused on archaeological 
preservation, or a Federal agency focused on cultural resource 
management may be more appropriate to protect these archaeological 
sites.
    The Service has limited funds with which to purchase lands and 
acquire easements to provide protection and management to trust 
resources following purchase. Therefore, the Service must be strategic 
in identifying lands for inclusion in the NWR System, and must set 
priorities for purchase. The Service recognizes that one of the most 
important challenges in the land acquisition process is the development 
of integrated national and regional wildlife habitat goals and 
objectives. When planning acquisitions and setting priorities, the 
Service considers known sites of threatened or endangered species and 
communities; areas important to the ecological health of lands already 
owned (e.g., areas that protect the quality and quantity of water for 
wetlands, provide habitat corridors between existing conservation 
lands, or are of sufficient size of contiguous lands to protect viable 
populations); and, areas important for priority wildlife species (e.g., 
critical stopover habitat for migrating birds). Other factors 
considered include the size of the proposal, the relationship to 
existing refuges, potential operations and maintenance costs, and the 
relationship to habitat and species conservation plans. These 
acquisition priorities must also be juxtaposed with the Service's 
ability to provide resources requisite for adequate administration of 
potential new refuge lands.
    The Service has an extensive list of possible acquisitions within 
the Northeast Region. Within the Chesapeake Bay, our highest priority 
is the Blackwater NWR in Maryland. We are currently developing a 
Comprehensive Conservation Plan for the Blackwater refuge that will 
include consideration of whether to recommend enlargement of the 
boundary of the refuge. We are working in close cooperation with State 
and local governments and partners in that process. Continued efforts 
in the Blackwater area will allow us to link important habitats 
providing valuable wildlife corridors.
    This Administration is committed to taking care of what we have, 
while ensuring that new acquisitions truly meet strategic needs of the 
Refuge System. As I mentioned earlier, this includes purchasing in-
holdings within currently approved refuge boundaries. There must be a 
balance between acquiring new lands and meeting the operational, 
maintenance and restoration requirements for the resources already in 
public ownership. Towards this end, the Service is currently developing 
a plan to guide future growth and land acquisition for the Refuge 
System.
    Establishing new refuges or significantly expanding existing ones 
compromises our ability to address needs at existing refuges. The 
Service is currently conducting condition assessments at all of its 
refuges facilities. Condition assessments have been completed at 40 
percent of refuge facilities and the Service expects the remaining 60 
percent to be assessed by the end of 2005.
    We are appreciative that you and your constituents would turn to 
the Fish and Wildlife Service as custodians of Garrett Island. However, 
given our priorities and funding constraints, we cannot support H.R. 
274. Nevertheless, the Service is willing to provide technical 
assistance to help you and your constituents through current Service 
programs such as Partners for Fish and Wildlife, the North American 
Wetlands Conservation Act, the Landowner Incentive Program, and Private 
Stewardship Grants which can be used in cooperation with State, local 
and private partners to restore and protect natural resources.

H.R. 417--Cibola NWR
    I appreciate the opportunity to testify today in support of H.R. 
417, which will revoke a small portion of Public Land Order 3442, dated 
August 21, 1964. This Public Land Order withdrew approximately 16,600 
acres of public domain lands along the Colorado River in California and 
Arizona for the Cibola NWR. The withdrawal erroneously included a small 
area of approximately 140 acres in Imperial County at the southern 
boundary of the California portion of the refuge. A similar bill, H.R. 
3937, was passed by the House last year, but was not acted upon by the 
Senate.
    Prior to 1964, this property fell under the jurisdiction of the 
Bureau of Land Management (BLM) and, beginning in 1962, the BLM issued 
a permit for a public recreation concession on the lands now in 
question. Because neither the Service nor the BLM recognized the 
mistake in legal descriptions on the ground, the BLM continued to renew 
the original permit and the recreational concession use has continued, 
unbroken, to the present time, although the BLM lease did expire in 
April 2002. The concession and location are commonly know as ``Walter's 
Camp,'' which consists of a recreational vehicle park, a small marina, 
and a store, and the BLM estimates that Walter's Camp receives 11,000 
visitors per year.
    The National Wildlife Refuge System Administration Act of 1966, as 
amended, (Act) requires that all uses of refuge lands be compatible 
with the purpose for which the refuge was established. Section 4(a) of 
the Act and section 204(j) of the Federal Land Policy and Management 
Act both prohibit the Secretary of the Interior from revoking 
withdrawals of land within NWRs. For this reason, Congressional action 
is required to remove these lands from the Refuge System.
    Since the inclusion of these lands in the Public Land Order was 
certainly a mistake, due to the prior existence of the concession, we 
believe the most equitable solution is removal of the lands from the 
refuge. There are no listed species inhabiting the 140 acres and the 
area in question is, at best, marginal wildlife habitat. Removal of the 
140 acres of land from the refuge would free-up the area necessary for 
the continuation of the recreational concession, while still affording 
more than adequate protection for the nearest significant wildlife 
habitat feature, Three Fingers Lake.
    We believe that withdrawal of these lands will benefit all parties 
involved--the concessionaire, the Service, the BLM and, ultimately, the 
public. For this reason, we support the bill and urge prompt action on 
enactment of H.R. 417.

H.R. 273--Nutria Eradication
    The Service commends the Chairman and the Committee for recognizing 
the significant threat posed by nutria to the Chesapeake Bay ecosystem 
and to the economy and culture of the Bay area communities. The Service 
has a long history of commitment to protecting and enhancing the fish 
and wildlife resources of the Bay area through our cooperative efforts 
with the States, private landowners, and through the habitat management 
work conducted on NWRs such as Blackwater NWR. We recognize that 
Federal land management agencies like the Service play a key role in 
managing invasive species, particularly at the local level, where 
communities are struggling to find support for protection of the 
environment, sustainable agriculture, and economic stability.
    Nutria are an exotic invasive rodent, native to South America, that 
have been introduced in 22 states nationwide, and affect over 1 million 
acres of the NWRS. Nutria have become one of the most destructive 
invasive mammals infesting every refuge along the Gulf of Mexico, 
including Louisiana, Mississippi, Alabama, Florida and Texas, as well 
as the refuges in the Chesapeake Bay in Maryland and Virginia. Nutria 
destroy important freshwater marsh habitats and contribute 
significantly to erosion and the deterioration of water control levees 
and other structures. The effective control of this animal is critical 
for refuges to meet their wetland wildlife habitat management 
objectives.
    The lower Eastern shore of Maryland, including Blackwater NWR, is 
one of the areas with high nutria populations. Blackwater NWR has lost 
over 7,000 acres of marsh since 1933, and the rate of marsh loss has 
accelerated in recent years to approximately 200 acres per year. 
Although there are many contributing factors (e.g., sea level rise, 
land subsidence), nutria are a catalyst of marsh loss because they 
forage on the below-ground portions of marsh plants. This activity 
compromises the integrity of the marsh root mat, facilitating erosion 
and leading to permanent marsh loss.
    Nutria are one of thousands of invasive species impacting the NWRS, 
as well as other Federal, State, and private lands. The degradation of 
native fish and wildlife habitats and the functional disruption of 
entire ecosystems due to invasive species is overwhelming.
    In an effort to make the best use of our abilities and resources, 
the Service cooperates with numerous partners, including the U.S. 
Geological Survey, within the Department, and the Department of 
Agriculture's (USDA) Wildlife Services, to identify priorities for 
nutria prevention and control work. The Service fully realizes the 
threat posed by nutria to the integrity and function of the Chesapeake 
Bay and other ecosystems, and we remain fully committed to cooperative 
nutria eradication on refuges and adjacent non-federal lands.
    In light of the significant ecological degradation caused by 
nutria, the Service joined forces with partners in Federal and State 
government and the private sector in 1997 to identify appropriate 
methods for controlling nutria and restoring degraded marsh habitat in 
the Chesapeake Bay. The partnership prepared a 3-year pilot program 
proposal, which was subsequently approved by Congress, including 
authorization for the Secretary of the Interior to spend up to $2.9 
million over 3 years beginning in Fiscal Year 2000 (Public Law 105-
322). The partnership successfully leveraged commitments of over $1.5 
million in non-Federal funds and services for the initiative.
    In Fiscal Years 2000 and 2001, $500,000 of Service funds were 
earmarked for initiation and implementation of the pilot study in and 
around Blackwater NWR as authorized by P.L. 105-322. The Service 
identified approximately $199,000 from the Partners for Fish and 
Wildlife program and approximately $299,000 from Refuge Operations 
funding to meet our study obligations. In Fiscal Year 2002, the Service 
received an earmark for an additional $550,000 for the nutria project 
through an addition to the Partners for Fish and Wildlife program 
budget that increased the available funds from that program for the 
nutria project to $749,000. This, plus the Refuge Operation funding, 
provided a total of $1.048 million for 2002. The Service received 
$991,000--$694,000 from the Partners for Fish and Wildlife program and 
$297,000 from Refuge Operations funding--to meet our project 
obligations for 2003, $493,000 above the Service's request.
    The President's 2004 budget request includes $699,000 from the 
Partners for Fish and Wildlife program and $799,000 from Refuge 
Operations funding to meet our nutria control project obligations for 
Fiscal Year 2004, an increase of $1.0 million above the 2003 request. 
The $1.0 million increase for Partners and refuges will treat 
approximately 50,000 infested acres. The Refuge Operations request 
would split the funding between the Chesapeake Bay and Louisiana 
ecosystems. Of the funds requested for nutria control on refuges, 
$300,000 would provide for nutria control operations, research 
strategies, and marsh habitat restoration at Blackwater NWR in Maryland 
and Eastern Neck NWR in Virginia. The remaining funds, $200,000, would 
support efforts within the Southeastern Louisiana NWR Complex, Delta 
NWR and Sabine NWR in Louisiana.
    During the past year the nutria program completed the testing of 
various trapping strategies in the original study site locations on 
approximately 3,600 acres. All animals trapped in this area were 
removed. Based on this success, the program will move ahead and include 
the entire acreage of Blackwater NWR, Fishing Bay Wildlife Management 
Area and Tudor Farms in Dorchester County in 40 acre plots. Trapping 
strategies on these plots are being further refined and these 
eradication strategies are being applied to the population of nutria 
throughout the study sites using a team of 12 trappers through USDA's 
Wildlife Services.
    We are encouraged by H.R. 273, and other bills introduced in 
Congress, which address invasive species problems. While there are 
aspects of the bill that cause concern, including the need for a new 
grant program to specifically address nutria, and a provision to 
significantly limit application of the funding to real administrative 
costs, the Service appreciates the Committee's efforts at controlling 
and eradicating invasive species, particularly nutria, and we stand 
ready to work with the Committee toward that end.
    We recognize the need to continue cooperative efforts to eradicate 
nutria in the Chesapeake Bay region and will continue its commitment as 
a key Federal member of the nutria eradication partnership and we plan 
to continue nutria project funding amounts within the priorities 
identified in the President's budget.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hogan. The 
testimony was concise, informative, well delivered and very 
helpful.
    Mr. Hogan. Thank you.
    Mr. Gilchrest. Very well appreciated.
    Can you tell me how many acres are affected in H.R. 289?
    Mr. Hogan. The expansion, as we read the bill, would 
include about 40,000 acres. And as I noted, we have an 
expansion boundary of about 5,000 acres right now in that same 
area.
    Mr. Gilchrest. 40,000 acres would be difficult, as opposed 
to the 5,000 acres because it is more land area to manage?
    Mr. Hogan. Well, sir, what we are really concerned with, in 
addition to the acquisition cost, which is not the major cost, 
the major cost is manning the operations and maintenance 
associated with adding additional acres to the refuge system. 
We are really trying to take a strategic approach to adding 
acres to our refuge system to make sure that once we acquire 
them, we can actually operate and manage them effectively and 
strategically.
    Mr. Gilchrest. And you see that this area has the potential 
to be protected without being drawn into the refuge system?
    Mr. Hogan. Yes, sir. We believe there are a number of 
programs--the Partners for Fish and Wildlife Service, the North 
American Wetlands Conservation Act program, and others that 
could be used to protect the important lands in that area.
    Mr. Gilchrest. Has there been a consortium created to look 
into that which includes Fish and Wildlife?
    Mr. Hogan. I believe there have been discussions with the 
folks in the region. I know through the development of the 
Comprehensive Conservation Plan they typically look at the host 
of issues that, in addition to refuge expansion and 
acquisition, that can be used.
    Mr. Gilchrest. I would like to focus now on--and I think 
what we will do, we will probably have a series of questions, I 
guess, so I will go for about 5 minutes and then I will yield 
to my colleagues for five, and then we can rotate like that.
    Do you have any idea what some of the costs involved in 
nutria eradication between Maryland and Louisiana are in this 
eradication project?
    Mr. Hogan. I am not completely clear on the question. Do 
you mean the costs in the budget or what the total costs of 
eradication would be?
    Mr. Gilchrest. The amount that is in the budget for 
Maryland and Louisiana for this project and any estimate for 
the total cost of eradication. And then is it possible--I guess 
the likelihood of eradicating nutria in Maryland is in the 
realm of possibility, total eradication, and I am wondering if 
it is in the realm of reality in Louisiana.
    Mr. Hogan. Well, I cannot speak to whether the total 
eradication is within the realm of possibility. I believe you 
are right that in the state of Maryland and Louisiana, I am not 
as clear.
    I do know that of the money proposed in the President's 
budget, the base budget for refuge operations was $299,000. 
That will all be dedicated to the Blackwater National Wildlife 
Refuge. The additional $500,000 that has been added to the 
President's budget this year, of that, $300,000 will go to 
refuges in the Maryland area, as well as other refuges in 
addition to Blackwater that have nutria problems. The remaining 
$200,000 will be dedicated to Louisiana refuges and nutria 
eradication.
    Mr. Gilchrest. What other refuges in the vicinity of 
Maryland have a nutria problem?
    Mr. Hogan. I am not sure of the specific refuges but I do 
know they exist on other refuges in the Delmarva peninsula. So 
certainly Blackwater is our main focus area but we want to make 
sure that we do not ignore other places where they could be 
causing damage.
    Mr. Gilchrest. Will this potential colder winter have an 
effect on the population?
    Mr. Hogan. That is a good question, sir, and I do not know. 
I would be glad to find out and get back to you with that.
    Mr. Gilchrest. Do you also in this nutria eradication, does 
Fish and Wildlife interact with USDA?
    Mr. Hogan. We do. Wildlife Services is an important part of 
the trapping program on the refuge to control and eventually 
hopefully eradicate nutria and we work very closely with them, 
as well as a host of other agencies. I think there are about 27 
private-governmental partnerships working together over in 
Maryland, ranging from private farms, private landowners, the 
State of Maryland, and local entities. I believe the college on 
the Eastern Shore is also involved, as well as the refuge and 
the state wildlife management agency.
    Mr. Gilchrest. Well, the Corps of Engineers is heavily 
involved in the project.
    Mr. Hogan. They are involved and they are involved 
especially in some of the restoration work that I know you are 
well aware of on the Blackwater Refuge.
    Mr. Gilchrest. So I guess with that restoration work being 
done to restore wetlands that have been destroyed by the 
nutria, is there specific interaction with the Corps on the 
nutria with the restoration of those wetlands?
    Mr. Hogan. I believe there is, sir, and I would be glad to 
find out for certain and get back to you.
    Mr. Gilchrest. Thank you.
    Mr. Hogan. As you know, they are doing some restoration 
right along the wildlife loop there and one of the purposes, in 
addition to doing the restoration, of course, is to really 
educate the public about the need to do this restoration and 
some of the impacts that nutria are having.
    Mr. Gilchrest. Do you have a rough estimate as to when the 
nutria might be under control or eradicated in Blackwater?
    Mr. Hogan. I know they are finishing a protocol in December 
of this year that looked at a number of different solutions and 
options for control and eradication and I will be glad to give 
you an exact update on where they are and what their proposals 
are from there.
    Mr. Gilchrest. Thank you.
    Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Hogan some questions about H.R. 289, which, as you know, Ms. 
Kaptur and Mr. Dingell were here earlier testifying to.
    I guess my concern, Mr. Hogan, is I know you oppose the 
bill; you stated that you do and I do not really quite 
understand why. You state that H.R. 289 would commit the 
service to a massive expansion of the refuge system and further 
note the geographic scope of the proposal includes over 80 
miles of coastline covering 40,000 acres or more.
    But, as you know, you heard Ms. Kaptur's testimony and she 
said that she had significantly streamlined the initial 
proposal to a much smaller scale and that the scale now is 
roughly compatible to the area investigated by the service for 
potential expansion of the existing Ottawa Complex.
    In your own written statement you say that the area 
outlined for acquisition in the bill is the same general 
geographic area as the Ohio portion of the proposed expansion 
of the Ottawa NWR, which was recommended in the service's own 
Comprehensive Conservation Plan.
    So I guess my initial question is if it is basically the 
same amount and it is within the boundaries, why do you have a 
problem with it? I mean she changed it but it is not 
significantly different in terms of the size, so why is there a 
problem?
    Mr. Hogan. Yes, sir. I apologize; it is a little bit 
confusing. Back in the 1990's, 1994, we used to do something 
called focus areas and what that would do is basically draw a 
line on a map and say within this area we will look to acquire 
a certain number of acres. We have since moved away from that 
process, so the focus area of the Ottawa Refuge is equal or 
close to the size of the expansion proposed in the bill. 
However, the refuge said they would only acquire within that 
focus area 5,000 acres, so not the total area but just within 
that larger area they would eventually acquire 5,000 acres.
    Back in 1996 the Congress passed the Wildlife Refuge 
Improvement Act, which mandated that each wildlife refuge go 
through the CCP or Comprehensive Conservation Process--
    Mr. Pallone. If the language is amended to specify that the 
lands targeted were acquisition were those 5,000 acres 
identified under the Comprehensive Conservation Plan, would the 
Administration then support the bill?
    Mr. Hogan. Well, we do not have a specific 5,000 acres 
within that area that we have targeted, but we would certainly 
work with Congresswoman Kaptur on that issue. Certainly our 
goal is to acquire up to 5,000 acres in that area and we would 
be glad to talk to her about that and to the Committee.
    Mr. Pallone. Why can that not just be accomplished under 
the boundaries that Ms. Kaptur has proposed?
    Mr. Hogan. Well, we are currently doing that. We are 
currently out there actively trying to achieve up to 5,000 
acres in that larger focus area. We are doing that now and we 
are actively pursuing it. We have acquired about 500 acres so 
far and we currently have another 600-acre acquisition in 
process, so we are almost about 20 percent of the way there on 
acquiring 5,000 acres in that area.
    Mr. Pallone. I understand your position but I still do not 
understand what the big deal is, frankly, Mr. Chairman.
    You say that you cannot support the passage of the bill 
because the proposed acquisition area would run a linear length 
of 80 miles and would encompass 40,000 acres but you have 
numerous existing refuges and refuge complexes that are spread 
over comparable or longer distances and include larger or more 
fragmented areas. Just as examples are the Upper Mississippi 
River Refuge, the Northern Tall Grass Prairie Refuge, Don 
Edwards San Francisco Bay Refuge, and there are a lot of other 
examples that can be found.
    In fact, this Subcommittee passed bills in the 106th 
Congress establishing two new riparian refuges in Alabama and 
Louisiana, the Cahaba National Wildlife Refuge and, the Red 
River National Wildlife Refuge, which were similar in that they 
are both linear, include fragmented boundaries, and have 
potential high price tags for acquisition, but the service 
supported these bills.
    So again what distinguishes the proposed expansion of 
Ottawa from the other refuges, especially those examples in 
Alabama or Louisiana?
    Mr. Hogan. Yes, sir. Our main opposition is the size, not 
the fact that it is spread out as a linear refuge. When we went 
through the CCP process we identified an expansion of 5,000 
acres that was approved both at the regional level and 
ultimately approved by the director of the Fish and Wildlife 
Service.
    We believe very strongly in that process of going through 
this Comprehensive Conservation Plan, as the Congress mandated 
that we do. We think it is a good system and we think that 
sticking to that system and sticking within the acquisition 
boundaries proposed within those CCPs is the best way to 
strategically grow the refuge system.
    Mr. Pallone. But how is this acquisition strategy that is 
outlined in her bill dissimilar from what was used for the 
Detroit River International Wildlife Refuge, which was 
supported by the Administration? In fact, I would think and I 
would like to know if the service agrees that the expansion of 
Ottawa would be complementary to Detroit River. How is it 
different and why would they not be complementary?
    Mr. Hogan. Well, it is not that it would not necessarily be 
complementary, sir. It is just that as we look at total 
acquisitions for the refuge system around the whole country and 
then trying to determine not just the acquisition costs but 
more importantly, the operations and management costs, that we 
really target areas that we think we can manage fiscally.
    We realize and certainly support the fact that there is not 
unlimited money to manage the refuge system, so we are really 
trying to be strategic about acquiring the most important lands 
that we can, but then certainly not turning our backs on 
communities that want to protect lands in those areas. We 
certainly would look forward to and continue to work with the 
communities up there to find other ways to make sure that the 
land is protected, but not necessarily within the refuge 
system.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Getting back to the East Coast, Mr. Hogan, it is my 
understanding that there has been a $4-a-tail bounty on nutria 
in Louisiana. Is there a similar bounty in Maryland, and how is 
that going in Louisiana?
    Mr. Hogan. You know, sir, I do not know. I assume in 
Louisiana that was a state-passed law and I do not believe that 
Maryland has a similar law. I am not exactly certain but again 
I would be glad to find that out and get back to you.
    Mr. Gilchrest. Thank you. That would be helpful. And I have 
some further questions on nutria that I would like to continue 
to correspond with you and stay in touch with you and the 
refuge manager on the progress of this whole process just to 
see if the possibility of eradication is real, at least up here 
in Maryland, considering we are on a peninsula and it is much 
less confined in what they have in the Gulf Coast states, 
especially Louisiana.
    I wanted to talk a little bit about Garrett Island. In your 
report that you gave to us, which I think was very 
comprehensive and very well done. And from the perspective of 
the Federal Government, Garrett Island certainly is worthy of 
protection in the light of, as we all know, increasing loss of 
habitat throughout the region through a full range of species, 
whether they are threatened, endangered, or not, the potential 
for them to become so, especially the neotropical birds, some 
of the raptors and so on. Because of increasing development, 
any land that has the potential to be preserved for habitat I 
think deserves worthy consideration. Your understanding is that 
it does deserve protection and that the private sector and the 
state and local governments, you are willing to work with in 
order to see that happen.
    Have you had any, yourself, Fish and Wildlife, interaction 
with the Cecil Land Trust on this issue?
    Mr. Hogan. Other than I know they participated in the site 
visit that was done last August that ultimately led to the 
report. I do not know for certain if we have had any 
discussions further with them.
    Just to clarify our testimony, we certainly believe that 
habitat protection is obviously important and that is our main 
mission. Garrett Island, while it does provide some wildlife 
habitat, it, as you mentioned, does not provide important 
habitat that we could find out from our report, either for our 
trust species, migratory birds or threatened and endangered 
species, but it does seem to have significant archeological 
value and we believe that looking at an agency, whether state 
or Federal, that is more focused on archeological value of land 
rather than necessarily wildlife habitat would be a better fit 
in this case.
    Mr. Gilchrest. You did make some good recommendations in 
your report, National Park Service in particular.
    So your discussions with the state--and I realize that a 
few years ago we were trying to get some money from the state 
to pay back the money that the Cecil Land Trust had put up for 
a limited duration and quite frankly, one of the reasons we 
came to this venue was because we were not successful with the 
state.
    So I understand the Federal perspective that this could be 
a state-protected entity; it could a county-protected entity, 
but since we came to this venue, we began looking at the fact 
that I think it is the 500th anniversary here pretty soon or 
some anniversary of John Smith and a whole range of things are 
happening to celebrate that particular anniversary date.
    And it has been mentioned numerous times about an island 
corridor in the Chesapeake Bay, not only to celebrate John 
Smith and John Smith apparently, just like George Washington, I 
guess, stops everywhere, goes to a tavern--John Smith stopped 
on Garrett Island and had lunch--but we were looking at the 
long-range proposal for habitat protection in to Chesapeake 
Bay, certainly on the uplands with the Delmarva Conservation 
Corridor idea, but an island corridor running throughout the 
Chesapeake Bay and Garrett Island, being right at the top of 
the bay, being a part of that island corridor and the larger 
land mass that would be managing this island corridor would be 
Blackwater Refuge.
    You mentioned in your testimony numerous times raptors, 
migrating waterfowl, neotropical birds, shorebirds and those 
kinds of things, and if you look at Garrett Island in 
isolation, Garrett Island is relatively small, 180 acres or so, 
and in that context it is minimal habitat but in the context of 
a string of islands to be protected and in the context of we 
are fighting this with a different idea about a conservation 
corridor, but with the inevitable increasing loss of habitat 
because of development and in the context of this island and 
this region being surrounded by Philadelphia, Wilmington, 
Baltimore, Washington, Richmond, Norfolk, and so on, this 
region in itself is a last island of refuge in a sea of 
expanding urban areas.
    So we would look forward to working with you. We want to 
make sure that the island is protected. We went to Fish and 
Wildlife as part of a process to do that and we will continue 
to pursue this legislation but also, as a parallel to that, we 
would like to sit down and talk to you, the National Park 
Service, and any other entity in the state and Federal 
Government to look at a broader perspective, not just Garrett 
Island but in the context of an island corridor. We will be in 
touch and in contact with you on that particular issue.
    I respect your position and I understand it but we are 
trying to create a regional approach. This is one small piece 
of that puzzle but a very important piece of that puzzle.
    Mr. Pallone, any further questions?
    Mr. Pallone. Mr. Chairman, I just wanted to ask some 
questions about the nutria bill.
    Mr. Hogan, what is the cost to restore one acre of wetlands 
destroyed by nutria? And are there any ways to protect restored 
marsh habitat from subsequent nutria damage? And what is the 
estimated time for recovery of those marshlands if the nutria 
population could be controlled?
    Mr. Hogan. I cannot give you exact figures right now but I 
will be glad to get back to you with that.
    Mr. Pallone. With the indulgence of the Chair, if he could 
get back to us in writing?
    Mr. Gilchrest. Absolutely. If the gentleman will yield just 
for a second?
    Mr. Pallone. Sure.
    Mr. Gilchrest. The Corps of Engineers has hired two 
biologists. Now I cannot remember their last names but they are 
both Steve--Steve and Steve. One is a Polish name and one is an 
Irish name, I believe. But anyway, Steve and Steve from the 
Corps of Engineers out of the Baltimore District are at this 
very minute undergoing an interesting experimental restoration 
process for those wetlands that have been lost to nutria and it 
is beginning to work. I am not exactly sure of the cost or the 
timeframe because it has never been done before in this manner, 
but it is an exciting possibility.
    Mr. Hogan. There is no question that invasives in general 
are a terrible problem on our refuges and nutria certainly is 
right there at the top of the list. It is one of the big ones 
and with your leadership, sir, we are certainly doing our best 
to do what we can to control them over on the Eastern Shore and 
we thank you for your leadership in that area.
    Mr. Pallone. Mr. Hogan, let me just run through a couple of 
these things. If you feel that you have to answer them in 
writing later, that is fine. The second question is where did 
the $30 million amount come from in this bill? From the figures 
that I have seen, once salary for 12 trappers and a supervisor 
is covered, there is almost $28 million remaining for the 
eradication and control program. And how would those funds be 
used?
    Mr. Hogan. We do have a very detailed plan on how the funds 
will be used and I will be happy to supply that to you and for 
the record, Mr. Chairman.
    Mr. Pallone. OK. And then to follow up on that point, how 
would marsh restoration efforts under H.R. 273 differ from 
similar efforts under other wetlands restoration programs under 
Wallop-Breaux or the Estuary Restoration Act?
    Mr. Hogan. Well, the restoration itself would not 
necessarily differ but the issue here is, as you pointed out 
earlier, not just restoring them but then making sure that we 
do not backtrack on the restoration, making sure that what goes 
hand in glove with the restoration is controlling the nutria. 
Otherwise the very acres that we have restored could ultimately 
be degraded again if we do not control the nutria population.
    Mr. Pallone. OK. And then with regard to control measures, 
it is my understanding that the preferred control method for 
nutria is trapping but it is also my understanding that this 
method has met limited success. You can comment on that but the 
question is has any effort been made to investigate the 
practicality of a biological control method, such as the 
introduction of predatory species? And has such an approach 
been tried on the Delmarva Peninsula or in Louisiana?
    Mr. Hogan. I do know that they have tried a host of 
eradication efforts, I think even as far as--Mr. Gilchrest will 
know--trying to improve the potential desire for nutria as a 
food source. I do not think that, unfortunately, has caught on 
too well in certain parts of the country, but there is a lot of 
creativity going into trying to figure out ways to control 
nutria and I will certainly be glad to supply that to you, all 
the different ways that we are looking at to make sure that we 
can control them.
    Mr. Pallone. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    I think they have alligators in Louisiana.
    Mr. Hogan. That is true.
    Mr. Gilchrest. And I think they actually eat them in 
Louisiana. We have not gotten to that point yet because if you 
want to know what a nutria tastes like, try to imagine what the 
hair of a rat tastes like. I should not say that too often 
because maybe somebody in Maryland is going to open up a 
restaurant.
    Mr. Pallone. Actually, they look kind of attractive.
    Mr. Gilchrest. The other thing, I guess we could import 
those alligators on a seasonal basis and ship them back down in 
the winter.
    Mr. Hogan. The trick would be catching them again and 
trying to send them back south.
    Mr. Gilchrest. Right. Well, I hope this winter has had an 
effect on that population.
    Just one other quick follow-up question, Mr. Hogan. The 
current BLM permit for Walter's Camp, does that expire in 6 
months?
    Mr. Hogan. Yes, it does and I know they are interested in 
expediting that so the BLM can go ahead and issue it. It is 
interesting that there has been some confusion as to who has 
actually owned the land. At one point they actually thought 
that it was transferred back to BLM and then it turned out that 
it was not, in fact, the case. So we are certainly interested 
in expediting it but, as you know, it has to be done 
legislatively. We cannot do it administratively, so we have 
turned to the Congress.
    Mr. Gilchrest. I wonder if the nutria would have any 
positive effect on the Meadowlands in New Jersey. Is that what 
you call it, the Meadowlands?
    Mr. Pallone. I was wondering; do they still use them for 
coats? I mean at one point is that not why they were 
introduced?
    Mr. Hogan. They were actually introduced as a potential fur 
source but it never really seemed to catch on.
    Mr. Pallone. It never caught on, OK.
    Mr. Gilchrest. We will have to try that in San Francisco 
first.
    Thank you very much, Mr. Hogan. We look forward to working 
with you on all these issues.
    Mr. Hogan. Thank you, Mr. Chairman.
    Thank you, Mr. Pallone.
    Mr. Gilchrest. The hearing is adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]


</pre></body></html>
